                                              SINGLE AUDIT
                                              QUALITY CONTROL REVIEW


Office of Inspector General—Office of Audit




                                              QUALITY CONTROL REVIEW:
                                              SINGLE AUDIT OF EXPERIENCE WORKS, INC.,
                                              FINANCIAL STATEMENTS, SCHEDULE OF
                                              EXPENDITURES OF FEDERAL AWARDS,
                                              REPORTS REQUIRED BY GOVERNMENT
                                              AUDITING STANDARDS AND OMB CIRCULAR
                                              A-133 FOR YEAR ENDED JUNE 30, 2007




                                                               Date Issued:   February 6, 2009
                                                               Report Number: 24-09-004-03-360
                                       U.S. Department of Labor – Office of Inspector General

U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC 20210




February 6, 2009


                         Assistant Inspector General’s Report

Ms. Cynthia A. Metzler
President and CEO
Experience Works, Inc.
4401 Wilson Boulevard
Suite 1100
Arlington, VA 22203

Dear Ms. Metzler:

The purpose of this report is to formally advise you of the results of a Quality Control
Review (QCR) the U.S. Department of Labor (DOL), Office of Inspector General (OIG),
conducted of the following audit completed by BDO Seidman, LLP (the Firm), under the
Federal Single Audit Act and Office of Management and Budget (OMB) Circular A-133
(A-133):

      Experience Works, Inc., Financial Statements, Schedule of Expenditures
      of Federal Awards, Reports Required by Government Auditing Standards
      and OMB Circular A-133 for Year Ended June 30, 2007

The objectives of the QCR were to determine whether: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements; (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

Our review included the following major program:

                                                       Catalog of Federal Domestic
                  Program                              Assistance (CFDA) Number
 Senior Community Service Employment
                                                                        17.235
 Program (SCSEP)

We determined that the audit work performed was not acceptable and did not meet the
requirements of the Single Audit Act and A-133. Additional work is required to bring this
audit into compliance with the requirements of the Single Audit Act. Specifically, the
Firm needs to: (1) correct the threshold recorded in the Federal Audit Clearinghouse
and notify the users of the Schedule of Findings and Questioned Costs of the correct
threshold amount; (2) document the threshold calculations; (3) reissue its report to

                                                                           Quality Control Review
                                                                           Experience Works, Inc.
                                                                  Report Number: 24-09-004-03-360
                                         U.S. Department of Labor – Office of Inspector General


include a reference to the management letter, and correct and reissue the management
letter; and (4) document the conclusions in the audit documentation as to why the
deficiencies noted in the management letter were not significant deficiencies.

We also noted issues requiring management’s attention to improve the quality of future
audits. Specifically, the Firm needs to: (1) revise its procedures to require reporting of
all alleged fraud; (2) verify the reported threshold during supervisory and final reviews of
A-133 audits; (3) revise its final review procedures to require review of management
letters and audit reports at the same time for A-133 audits; and (4) revise the Firm’s
policies and procedures to require consideration of the classification of internal control
deficiencies during its final review of management letters for A-133 audits.

The Firm took action to address the noted deficiencies and to improve the quality of
future audits. Details on the results of our review are provided in the Enclosure.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure

cc: Ms. Laurie Rocha, Partner, BDO Seidman, LLP

   Ms. Judith A. Fisher, Division of Policy, Review, and Resolution,
    Employment and Training Administration




                                              2                       Quality Control Review
                                                                      Experience Works, Inc.
                                                             Report Number: 24-09-004-03-360
                                       U.S. Department of Labor – Office of Inspector General


                                                                                Enclosure

                            Quality Control Review:
                   Single Audit of the Experience Works, Inc.,
   Financial Statements, Schedule of Expenditures of Federal Awards, Reports
                Required by Government Auditing Standards and
                OMB Circular A-133 for Year Ended June 30, 2007
                               (24-09-004-03-360)

Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments of
1996, created a single organization-wide financial and compliance audit for state and
local governments, colleges, universities, and not-for-profit organizations that expend
Federal funds equal to or greater than $300,000 in any fiscal year ($500,000 for fiscal
years ending after December 31, 2003).

On December 17, 2007, BDO Seidman, LLP, issued a single audit report of the
Experience Works, Inc., Financial Statements, Schedule of Expenditures of Federal
Awards, Reports Required by Government Auditing Standards and OMB Circular A-133
for Year Ended June 30, 2007.

We performed a QCR of the above referenced audit. Our review included the following
major program:


                   Program                                CFDA Number
                   SCSEP                                     17.235

Objectives

The objectives of the QCR were to determine whether: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements; (2) any
follow-up work is needed; and (3) there are any issues that may require management’s
attention.

We determined that the audit work performed was not acceptable and did not meet the
requirements of the Single Audit Act and A-133. Additional work is required to bring this
audit into compliance with the requirements of the Single Audit Act. Specifically, the
Firm needs to: (1) correct the threshold recorded in the Federal Audit Clearinghouse
and notify the users of the Schedule of Findings and Questioned Costs of the correct
threshold amount; (2) document the threshold calculations; (3) reissue its report to
include a reference to the management letter and correct, and reissue the management
letter; and (4) document the conclusions in the audit documentation as to why the
deficiencies noted in the management letter were not significant deficiencies.


                                          3                         Quality Control Review
                                                                     Experience Works, Inc.
                                                           Report Number: 24-09-004-03-360
                                         U.S. Department of Labor – Office of Inspector General


We also noted issues requiring management’s attention to improve the quality of future
audits. Specifically, the Firm needs to: (1) revise its procedures to require reporting of
all alleged fraud; (2) verify the reported threshold during supervisory and final reviews of
A-133 audits; (3) revise its final review procedures to require review of management
letters and audit reports at the same time for A-133 audits; and (4) revise the Firm’s
policies and procedures to require consideration of the classification of internal control
deficiencies during its final review of management letters for A-133 audits.

Possible Fraud or Illegal Acts

1. The Firm did not verify that the auditee reported alleged fraud to the OIG as
   required.

The Firm did not ensure that alleged fraud was reported as required by A-133.
Although the Firm said it notified the auditee an alleged fraud needed to be reported
to the U.S. Department of Labor, it did not verify the alleged fraud was reported as
required. The Firm’s audit documentation did not contain evidence the alleged fraud
was reported to either the OIG or to the Employment and Training Administration (ETA).
At our request, the Firm obtained a letter the grantee submitted to ETA. However, we
and the Firm were unable to find any evidence that the report was submitted to the OIG.

A-133, Subpart E – Auditors, Section 510 -- Audit findings, paragraph (a) – Audit
findings reported, subparagraph (6), provides that the auditor shall report as audit
findings, in a schedule of findings and questioned costs, known fraud affecting a
Federal award, unless such fraud is otherwise reported as an audit finding in the
schedule of findings and questioned costs for Federal awards. This paragraph does not
require the auditor to make an additional reporting when the auditor confirms that the
fraud was reported outside of the auditor’s reports under the direct reporting
requirements of Generally Accepted Government Auditing Standards (GAGAS).

GAGAS, paragraph 5.24, states, in part:

       … auditors should obtain sufficient, competent, and relevant evidence,
       such as confirmation from outside parties, to corroborate assertions by
       management that it has reported fraud … If they are unable to do so, then
       the auditors should report such fraud…directly…

Title 20, Code of Federal Regulations, Section 667.630, requires that information and
complaints involving criminal fraud … must be reported immediately through the
Department’s Incident Reporting System to the DOL-OIG … with a copy simultaneously
provided to ETA.




                                              4                       Quality Control Review
                                                                      Experience Works, Inc.
                                                             Report Number: 24-09-004-03-360
                                        U.S. Department of Labor – Office of Inspector General


The Firm said the fraud was not reported because it was less than $300 and the amount
was immaterial. Failure to report alleged fraud to the appropriate parties results in an
increased risk to Federal funds.

Determination of Major Programs

2. The Firm inaccurately calculated the Type A threshold.

The Firm did not accurately calculate the dollar threshold it used to identify Type A
programs that it reported to the Federal Audit Clearinghouse or on the Schedule of
Findings and Questioned Costs. The Firm reported $3,044,701 as the threshold
amount. Further, the computations for that amount were not included in the audit
documentation. The amount should have been $3,000,000.

A-133, Subpart E – Auditors, Section 520 -- Major Program Determination, provides for
the identification of major programs using a risk-based approach which includes the
identification of Type A programs.

A-133, Subpart C—Auditees, Section 320 -- Report submission, requires the threshold
be used in determining the programs to select for audit and requires it to be reported to
the Federal Audit Clearinghouse. A-133, Subpart E—Auditors, Section 505(d) -- Audit
reporting, requires reporting the threshold in the Schedule of Findings and Questioned
Costs.

The Firm said an incorrect methodology was used to calculate the threshold and this
was not detected through supervisory reviews or through final reviews of A-133 audits.
Although the incorrect reporting had no effect on the work performed by the Firm, it
resulted in incorrect information being maintained on a Federal database used to
analyze information from all single audits.

Reporting

3. The Firm did not refer to a management letter in its report.

The Firm did not disclose in its report that there were internal control deficiencies
reported to management. Specifically, the Firm issued a management letter that was
not referred to in the Firm’s report on internal control.

GAGAS, paragraph 5.16, provides that if deficiencies are reported in a management
letter, the auditor’s report on internal control should refer to that letter.

The Firm said it did not notice the report did not make reference to the management
letter because the report and management letter did not go through the final review
process at the same time. The Firm’s policies and procedures did not require review of
the audit report and management letter at the same time for A-133 audits. As a result,

                                          5                          Quality Control Review
                                                                      Experience Works, Inc.
                                                            Report Number: 24-09-004-03-360
                                          U.S. Department of Labor – Office of Inspector General


readers of the report were not made aware of the existence of the management letter
and readers would conclude there were no internal control deficiencies.

4. The Firm did not document its conclusion on internal control deficiencies in
   the audit documentation.

The management letter included two internal control deficiencies that were identified as
significant deficiencies, but the Firm did not document its conclusion in the audit
documentation. Significant deficiencies were required to be reported in the Firm’s
report and not in a management letter. Further, the audit documentation did not explain
why the internal control deficiencies were or were not significant.

GAGAS, paragraph 5.12, provides that, for financial audits, the auditors should report
deficiencies in internal control considered to be reportable conditions. On June 26,
2007, OMB issued a notice which stated that to be consistent with recent revisions to
auditing standards, the term “reportable condition” is replaced with the term “significant
deficiency.”

The American Institute of Certified Public Accountants (AICPA) issued Statement on
Auditing Standards No. 112 -- Communicating Internal Control Related Matters
Identified in an Audit (AICPA, Professional Standards, Vol. 1, Auditing 325), became
effective for audits of periods ending on or after December 15, 2006. It states, in part:

       A significant deficiency is a control deficiency, or combination of control
       deficiencies, that adversely affects the entity’s ability to initiate, authorize,
       record, process, or report financial data reliably in accordance with
       generally accepted accounting principles such that there is more than a
       remote likelihood that a misstatement of the entity’s financial statements
       that is more than inconsequential will not be prevented or detected by the
       entity’s internal control.

GAGAS, paragraphs 4.22 through paragraph 4.24, provide that audit documentation for
financial audits performed in accordance with GAGAS should contain sufficient
information to enable an experienced auditor who has had no previous connection with
the audit to ascertain from the audit documentation the evidence that supports the
auditors’ significant judgments and conclusions. AICPA standards and GAGAS require
auditors to prepare and maintain audit documentation.

The Firm said the deficiencies were control deficiencies instead of significant
deficiencies, and provided a well-reasoned explanation supporting that conclusion. The
Firm said it had not thoroughly considered the classification of the deficiencies at the
time of the audit. Furthermore, the Firm’s policies and procedures did not provide for
consideration of the classification of internal control deficiencies during its final review of
management letters for A-133 audits.

                                                6                       Quality Control Review
                                                                        Experience Works, Inc.
                                                               Report Number: 24-09-004-03-360
                                        U.S. Department of Labor – Office of Inspector General


The lack of documented conclusions as to why an internal control deficiency is or is not
a significant deficiency raises questions regarding the appropriateness of the audit
conclusions.

Recommendations

We recommend the Firm:

   1. Revise its procedures to require reporting of all alleged fraud as required by
      A-133.

   2. Correct the threshold recorded in the Federal Audit Clearinghouse and notify the
      users of the Schedule of Findings and Questioned Costs of the correct threshold
      amount.

   3. Document threshold calculations and verify the reported threshold during
      supervisory and final reviews of A-133 audits.

   4. Revise its final review procedures to require review of management letters and
      audit reports at the same time for A-133 audits.

   5. Reissue its report to include a reference to the management letter, and correct
      and reissue the management letter.

   6. Document the conclusions in the audit documentation as to why the deficiencies
      noted in the management letter were not significant deficiencies.

   7. Revise the Firm’s policies and procedures to require consideration of the
      classification of internal control deficiencies during its final review of management
      letters for A-133 audits.

Firm’s Response

The Firm agreed with the recommendations, and took action to address the noted
deficiencies and to improve the quality of future audits. The response is provided in full
in Appendix D.

OIG’s Conclusion

We consider the recommendations resolved and closed.




                                          7                          Quality Control Review
                                                                      Experience Works, Inc.
                                                            Report Number: 24-09-004-03-360
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




               8                       Quality Control Review
                                       Experience Works, Inc.
                              Report Number: 24-09-004-03-360
             U.S. Department of Labor – Office of Inspector General




Appendices




               9                          Quality Control Review
                                           Experience Works, Inc.
                                 Report Number: 24-09-004-03-360
        U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




             10                      Quality Control Review
                                     Experience Works, Inc.
                            Report Number: 24-09-004-03-360
                                U.S. Department of Labor – Office of Inspector General


                                                                        Appendix A
Background

The Single Audit Act of 1984 established consistent and uniform entity-wide audit
requirements for state and local governments receiving Federal financial
assistance. The single audit is the primary mechanism used by Federal agencies
to ensure accountability for Federal awards. Audits performed under the Single
Audit Act are intended to satisfy all Federal agencies providing assistance to the
entity. The act was amended in 1996 by Public Law 104-156, raising the threshold
for single audit to $300,000 in Federal assistance. The June 27, 2003, revision to
A-133 raised this threshold to $500,000 for fiscal years ending after
December 31, 2003.

QCRs are performed to provide evidence of the reliability of single audits to the
auditors of Federal agency financial statements, such as those required by the
Chief Financial Officers Act, those responsible for the programs, and others. We
performed a QCR of the single audit of the Experience Works, Inc., Financial
Statements, Schedule of Expenditures of Federal Awards, Reports Required by
Government Auditing Standards and OMB Circular A-133 for Year Ended June 30,
2007, performed by BDO Seidman, LLP.

Experience Works, Inc., a non-profit corporation was incorporated in the District
of Columbia. The organization’s mission is to strengthen families, communities
and our nation by providing disadvantaged and older individuals with
opportunities to learn, work, and serve others. In support of this mission, the
organization operates job training and placement projects, funded through
federal grant awards made directly to the organization, passed through to the
organization to other recipients, through state contract awards, and through
foundation support. For the year ending June 30, 2007, Experience Works, Inc.,
expended about $101.5 million in Federal funds, of which $101.0 million was
attributable to DOL.




                                         11                  Quality Control Review
                                                             Experience Works, Inc.
                                                           Number: 24-09-004-03-360
        U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




             12                      Quality Control Review
                                     Experience Works, Inc.
                            Report Number: 24-09-004-03-360
                                U.S. Department of Labor – Office of Inspector General


                                                                       Appendix B
Objectives, Scope, Methodology and Criteria

Objectives

Our objectives were to determine whether:

   1. The audit was conducted in accordance with applicable standards and
      met the single audit requirements;

   2. Any follow-up work is needed; and

   3. There are any issues that may require management’s attention.

Scope

We performed a QCR of the single audit of the Experience Works, Inc., Financial
Statements, Schedule of Expenditures of Federal Awards, Reports Required by
Government Auditing Standards and OMB Circular A-133 for Year Ended June
30, 2007, at the offices of BDO Seidman, LLP, located at 7101 Wisconsin
Avenue, Bethesda, Maryland, from August 6, 2008 to August 15, 2008.

Our review included the following major program:


                   Program                                 CFDA Number
                   SCSEP                                      17.235

Methodology

Using the President’s Council on Integrity and Efficiency Uniform QCR Guide for
A-133 Audits, we reviewed audit documentation and held discussions with the
Firm’s partners and audit manager to accomplish the required steps. The Guide
was developed to test for compliance with GAGAS general and fieldwork
standards and A-133 requirements. Specifically, we reviewed:

   •    Competence
   •    Independence
   •    Professional Judgment
   •    Quality Control
   •    Planning and Supervision
   •    Management Representations
   •    Litigation, Claims and Assessments
   •    Possible Fraud or Illegal Acts
   •    Determination of Major Programs
                                         13                  Quality Control Review
                                                             Experience Works, Inc.
                                                           Number: 24-09-004-03-360
                                U.S. Department of Labor – Office of Inspector General


   •   Schedule of Expenditures of Federal Awards
   •   Audit Follow-up
   •   Reporting
   •   Internal Control Over Major Programs
   •   Data Collection Form

We also reviewed the Firm’s peer review applicable to the period of the audit.

Criteria

Generally Accepted Government Auditing Standards

Guidance on GAGAS Requirements for Continuing Professional Education

Single Audit Act of 1984

Single Audit Act Amendments of 1996

OMB Circular A-133




                                     14                      Quality Control Review
                                                             Experience Works, Inc.
                                                    Report Number: 24-09-004-03-360
                              U.S. Department of Labor – Office of Inspector General


                                                                      Appendix C
Acronyms and Abbreviations


  A-133    Office of Management and Budget Circular A-133

  AICPA    American Institute of Certified Public Accountants

  CFDA     Catalog of Federal Domestic Assistance

  DOL      Department of Labor

  ETA      Employment and Training Administration

  Firm     BDO Seidman, LLP

  GAGAS Generally Accepted Government Auditing Standards

  OIG      Office of Inspector General

  OMB      Office of Management and Budget

  QCR      Quality Control Review

  SCSEP    Senior Community Service Employment Program




                                         15                Quality Control Review
                                                           Experience Works, Inc.
                                                         Number: 24-09-004-03-360
        U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




             16                      Quality Control Review
                                     Experience Works, Inc.
                            Report Number: 24-09-004-03-360
                           U.S. Department of Labor – Office of Inspector General


                                                                   Appendix D
Independent Public Accountant Response To Draft Report




                                    17                  Quality Control Review
                                                        Experience Works, Inc.
                                                      Number: 24-09-004-03-360
U.S. Department of Labor – Office of Inspector General




     18                      Quality Control Review
                             Experience Works, Inc.
                    Report Number: 24-09-004-03-360
U.S. Department of Labor – Office of Inspector General




         19                  Quality Control Review
                             Experience Works, Inc.
                           Number: 24-09-004-03-360
